No. 19-52

Jln ~be

~upreme QCourt of tbe fflniteb ~tates
ALFREDJ. WALKER,

Petitioner,
v.
N.C. ENGLISH,

WARDEN, USP-LEAVENWORTH,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE

I, Roman Martinez, counsel of record for Petitioner Alfred Walker, and a
member of the Bar of this Court, hereby certify that on the 15th day of October, 2019,
I caused to be served three (3) copies of the Reply in Support of Petition for a Writ of
Certiorari in the above-referenced case by first-class mail, postage prepaid, upon
counsel as listed below:

Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Reply in Support of Petition for a Writ of Certiorari was transmitted to
the above-listed counsel at the referenced email address.

I further certify that all parties required to be served have been served.

By

d7
(IL .

~-V?

Roma~nez
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Petitioner

2

